1301 Pennsylvania Avenue NW
Washington, D.C. 20004
United States

John C. O’Quinn, P.C.
To Call Writer Directly:
+1 202 389 5191
john.oquinn@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

April 30, 2020
Electronic Filing
Mr. Scott S. Harris
Clerk of the Court, Supreme Court of the United States
One First Street NE
Washington, DC 20543-0001
Re:

Dr. Reddy’s Laboratories, Ltd., et al. v. Eli Lilly & Co., No. 19-1061

Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioners in the above-captioned
case (Dr. Reddy’s Laboratories, Ltd. and Dr. Reddy’s Laboratories, Inc.) respectfully request that
the Court delay distribution of the petition for writ of certiorari until May 26, 2020, and set it for
consideration at the conference on June 11, 2020. The petition is currently scheduled for
distribution on May 12, 2020, for consideration at the conference on May 28, 2020.
Petitioners and counsel are presently dealing with the impact on their operations caused
by the COVID-19 pandemic, which has complicated our ability to meaningfully confer on, and
prepare, the certiorari-stage reply brief in this case. The requested delay thus will permit
petitioners to prepare a submission that will be most helpful to the Court.
Respondent consents to this request.
Sincerely,
/s/
John C. O’Quinn, P.C.
Counsel of Record for Petitioners
cc: Adam L. Perlman, Counsel of Record for Respondent

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

